IN THE SUPREME COURT OF THE UNITED STATES
Rachel Crook,
Petitioner,
v.
Shea Fiduciary Services, et. al.,
Respondent(s).

CERTIFICATE OF SERVICE

On August 11, 2021, I, Rachel Crook, Pro Se litigant, hereby certify that I served
the documents described as:

1. Motion for Leave to Proceed In Forma Pauperis(with Declaration and Exhibit 1),
2. Motion to Proceed Under Judicial Notice,
3. Petition for Writ of Certiorari

on all interested parties in this action by placing a true and correct copy thereof
in a sealed envelope, with first-class postage prepaid thereon, and deposited said
envelope in the United States mail at or in Hesperia, California, addressed to:

1)
US Supreme Court of the United States
Attn: Clerk of the Court
1 lsc Street NE
Washington DC 20543

2)
Chandler Law Firm
Attn: Robert Chandler
3800 Orange St. Suite 270
Riverside, CA 92501

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 11, 2021 at Hesperia, California.
Respec

UCC (-308 without prejudice
Rach :1 Crook, Beneficiary and
Administrator of the United States
of America, and Pro Se litigant

D

